HHS/OIG-Audit--"Follow-up Audit of the Health Care Financing Administration's Resolution of Two Office of Inpsector General Audits Related to Inpatient Alcoholism Claims Made by New York State, (A-02-94-01026)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of the Health Care Financing Administration's Resolution of Two Office of Inspector General Audits
Related to Inpatient Alcoholism Claims Made by New York State," (A-02-94-01026)
September 12, 1995
Complete
Text of Report is available in PDF format (800 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In two previous reports we had recommended that New York (1) refund approximately $3.9 million for improper alcoholism
claims not covered under Medicaid, (2) cease claiming for such services, (3) develop edits and controls to prevent improper
claiming, and (4) identify and return unallowable amounts claimed subsequent to the periods audited. Our follow-up audit
showed that the Health Care Financing Administration (HCFA) properly addressed the first three recommendations. With regard
to the fourth recommendation, HCFA accepted a refund for $654,982 from the State without performing any validation work
regarding the reasonable of this amount. Our validation work showed the refund amount should have been $6,347,061, a difference
of $5,692,079. We recommended that HCFA seek recovery of this additional amount. The HCFA concurred.